                                          December 19, 2007




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations

                            William M. McCabe
                            Chief Financial Officer



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    MEMORANDUM REPORT: REVIEW OF NRC’S
                            IMPLEMENTATION OF THE FEDERAL MANAGERS’
                            FINANCIAL INTEGRITY ACT FOR FISCAL YEAR 2007
                            (OIG-08-A-05)


This report reflects the Office of the Inspector General’s (OIG) assessment of the
Nuclear Regulatory Commission’s (NRC) FY 2007 compliance with the Federal
Managers’ Financial Integrity Act (FMFIA) of 1982. We found that NRC complied with
the FMFIA, except for the following material weakness associated with the Federal
Information Security Management Act (FISMA):

   •   Lack of current certification and accreditation for the agency’s information
       system security program, and

   •   Lack of annual contingency plan testing for the agency’s information system
       security program.

This report contains no recommendations because the material weakness and the
related audit recommendation are included in the OIG report, Results of the Audit of
the United States Nuclear Regulatory Commission’s Financial Statements for Fiscal
Years 2007 and 2006, report number OIG-08-A-01, dated November 9, 2007.
     Review of NRC’s implementation of the Federal Managers’ Financial Integrity Act for Fiscal Year 2007



BACKGROUND

The FMFIA was enacted on September 8, 1982, in response to continuing disclosures
of waste, loss, unauthorized use, and misappropriation of funds or assets associated
with weak internal controls and accounting systems. Congress believed that such
abuses hampered the effectiveness and accountability of the Federal Government and
eroded the public’s confidence. The FMFIA requires Federal managers to establish a
continuous process for evaluating, improving, and reporting on the internal controls
and accounting systems for which they are responsible.

The FMFIA requires that, each year, the head of each executive agency (subject to
the FMFIA) shall submit a statement to the President and the Congress on the
adequacy of the agency’s systems of internal accounting and administrative control.
NRC incorporates its FMFIA statement in its annual Performance and Accountability
Report.

Effective for FY 2006, Office of Management and Budget (OMB) Circular No. A-123,
Management’s Responsibility for Internal Control, revised December 2004, requires
that management provide a separate assurance statement relating to internal control
over financial reporting. In addition, both OMB Circular No. A-123 and OMB Bulletin
No. 07-041, Audit Requirements for Federal Financial Statements, require that
significant deficiencies identified under FISMA be reported as material weaknesses in
the annual FMFIA report.

RESULTS

The Chairman and the Inspector General reported the same results on the agency’s
FY 2007 compliance with the FMFIA as discussed below.

Federal Information Security Management Act

Both the Chairman and the Inspector General identified a material weakness related
to the:

       (1)    Lack of current certification and accreditation for the agency’s information
              system security program, and

       (2)    Lack of annual contingency plan testing for the agency’s information
              system security program.




1
 OMB Bulletin No. 07-04, issued September 4, 2007, supersedes OMB Bulletin No. 06-03, Audit
Requirements for Federal Financial Statements.


                                                   2
      Review of NRC’s implementation of the Federal Managers’ Financial Integrity Act for Fiscal Year 2007



AGENCY COMMENTS

A draft of the report was provided to NRC management. The Office of the Executive
Director for Operations and the Office of the Chief Financial Officer had no comments.

SCOPE/CONTRIBUTORS

We evaluated the internal control related to NRC’s implementation of the FMFIA for
FY 2007, and conducted our work in November 2007, in accordance with Generally
Accepted Government Auditing Standards. This audit was conducted by Steven
Zane, Team Leader; Kathleen Stetson, Audit Manager; and Michael Steinberg, Senior
Auditor.

If you have any questions, please contact me at 415-5915 or Steven Zane at
415-5912.

cc:     Chairman Klein
        Commissioner Jaczko
        Commissioner Lyons
        V. Ordaz, OEDO
        M. Malloy, OEDO
        P. Tressler, OEDO




                                                    3
